APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(December 6, 2019) . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Eastern District
of Michigan, Southern Division
(June 18, 2018) . . . . . . . . . . . . . . App. 34
Appendix C Opinion and Order Granting in Part
and Denying in Part Defendants’
Motion for Summary Judgment (Doc.
35) and Denying Plaintiff’s Motion for
Partial Summary Judgment (Doc. 36)
in the United States District Court for
the Eastern District of Michigan,
Southern Division
(April 20, 2018) . . . . . . . . . . . . . . App. 36
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(January 10, 2020) . . . . . . . . . . . App. 73

App. 1

APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
File Name: 19a0594n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case Nos. 18-1576/1608/1695
[Filed December 6, 2019]
_____________________________
KIMBERLEY THAMES,
)
)
Plaintiff-Appellee/
)
Cross-Appellant,
)
)
v.
)
)
CITY OF WESTLAND, et al., )
)
Defendants-Appellants/
)
Cross-Appellees.
)
_____________________________ )
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT OF MICHIGAN
Before: BOGGS, BATCHELDER, and BUSH,
Circuit Judges.

App. 2
ALICE M. BATCHELDER, Circuit Judge. In
this interlocutory appeal, four police officers, in their
individual capacities, appeal the district court’s denial
of qualified immunity from claims of false arrest,
retaliatory arrest in violation of freedom of speech and
religion, and denial of equal protection. The plaintiff
cross-appeals the denial of her motion for summary
judgment on those claims and separately appeals the
grant of summary judgment to the City and its Police
Chief, certified for appeal under Federal Rule of Civil
Procedure 54(b). We AFFIRM in part, REVERSE in
part, and REMAND for entry of judgment consistent
with this opinion.
I.
On Saturday morning, August 27, 2016, Kimberley
Thames, a 57-year old, Roman Catholic, pro-life
activist, stood with three other people—an elderly
woman who appeared to be a Catholic nun, and a
wheelchair-bound man with his wife—on the public
sidewalk outside Northland Family Planning, an
abortion clinic. Thames was holding a two-foot-by-twofoot sign with a photo and handwritten words,
advocating pro-life beliefs and protesting abortion.
While many Northland Clinic employees knew Thames
as an occasional protestor, the Clinic’s security guard,
Robert Parsley, apparently did not. He was standing
somewhere near her when she engaged him in
conversation, beginning with her offer that she was
praying for him and praying that he would find a
different job. But, at some point, there was discussion
of bombs. Thames said that Parsley raised the topic of
bombs, telling her that there had been bombings and

App. 3
threats at abortion clinics, but Parsley says that
Thames initiated it and said something like: “I
prophesy bombs are going to fall and they’re going to
fall in the near future”; “I prophesy bombs are going to
fall and they’re going to fall on you people”; and
“bombs, bombs on America, and bombs will blow up
this building.”
At the end of this conversation, Thames left in her
car (she says to use a restroom) but Parsley reported
Thames’s statements to a clinic employee, Mary
Guilbernat, who immediately called 911. The
dispatcher sent four City of Westland police officers to
the Clinic: John Gatti, Jason Soulliere, Adam Tardif,
and Sergeant Norman Brooks.1 These are the
defendants here.
When Thames returned to resume her protesting,
the police were there. Officer Gatti had arrived first
and interviewed Parsley and Guilbernat. Both
identified Thames as the person who made the
statements. Parsley also told Officer Gatti that Thames
fled when he tried to take her photo, saying: “I tried to
make contact [with Thames] via photo. . . . [M]ost of
them they don’t mind getting photoed, but she has a
problem with giving me a photo.”2 When Officer

1

Another officer, John Halaas, arrived on-scene at some point and
participated in Thames’s arrest and the search of her car. Thames
cites a rude comment that Officer Halaas made, but she did not
name him in the lawsuit.

2

In the police cruiser after her arrest, Thames was recorded on the
dashcam video saying, unprompted: “He [Parsley] was trying to
take a picture of me and I didn’t want him to do that.”

App. 4
Soulliere approached Thames and asked if she had
made a bomb threat, Thames denied it but would not
tell Officer Soulliere what she had said to Parsley;
instead, she talked around Officer Soulliere’s
questions, repeating that she had not made any threat,
objecting that she did not know what she could have
said that Parsley had misconstrued, and blaming
Parsley, saying that he had first mentioned bombings
at abortion clinics.
Souilliere:

Did you tell someone there was
going to be a bombing?

Thames:

Noo-oh. . . . I didn’t say anything
like that.

Soulliere:

Well there’s several cops coming
this way so I need to know why you
said what you said - - and what you
said.

Thames:

Uh, I think you should ask him
[Parsley] because I think he’s
misrepresenting something that I
must have said. I certainly - -

Soulliere:

Well what did you say?

Thames:

I didn’t say that.

Soulliere:

Well, what did you say?

Thames:

I didn’t say that.

Soulliere:

Well, I understand that.

Thames:

I didn’t say that. I don’t really
know.

App. 5
Soulliere:

But what did you say?

Thames:

What would I have said that would
have made him [Parsley] say such
a thing?

Soulliere:

Well, I don’t know. That’s why
we’re here to investigate because
he said that you said there is going
to be a bombing.

Thames:

I did not say that.

Soulliere:

This is a pretty serious threat.

Thames:

Right, and I think, I think he
[Parsley] has an issue.

Soulliere:

So, what did you say to him?

Thames:

I didn’t say that. I wasn’t - -

Soulliere:

Ma’am, I understand that you
didn’t say that to him. But what
did you say? Can we get to the
bottom of this?

Thames:

I do not know. I do not know.

Soulliere:

Ok, you don’t know what you said
to him?

Thames:

I do not know what he’s referring
to. Period. I do not know.

Soulliere:

Well what did you say to him?

Thames:

I didn’t really say anything.

App. 6
[The nun walked over to intervene in this
conversation.]
Nun:

Why don’t you have them both
come together? Why don’t you call
them both here?

Thames:

Do I need an attorney? Because - -

Soulliere:

Or you can just talk to me about
what happened.
. . . [some repeated denials,
rebuttals, and talking over each
other]

Soulliere:

Alright, well you won’t even tell me
what you said to him, so - -

Thames:

It wasn’t something for me to say
that could be misconstrued.

Soulliere:

Well, I’ve already explained to you
what we’ve been called here for - -

Thames:

I understand and it’s a false call,
sir.

Soulliere:

Well, you won’t even tell me what
you said to him.

Thames:

There is nothing I said that should
be even misconstrued as such.

During this continued exchange, Thames explained to
the officers that no one else had heard her conversation
with Parsley. That is, clinic employee Mary Guilbernat
did not hear the conversation with Parsley, but more

App. 7
importantly, Thames said that the nun did not actually
hear it either.
Based on Parsley’s accusation, including his written
statement, and Thames’s evasiveness with Officer
Soulliere, Sergeant Brooks, the senior officer at the
scene, ordered Thames arrested for making a terrorist
threat in violation of M.C.L. § 750.543m, the section of
the “Michigan Anti-Terrorism Act” titled “Making
Terrorist Threat or False Report of Terrorism.”
Sergeant Brooks testified at his deposition in this case
about his reasoning for the arrest:
Question:

Are you aware that . . . at the
scene, according to the video and
Officer Gatti’s testimony, the
complaining witness [Parsley] says
[that Thames said], ‘I prophesy
bombs, I prophesy bombs are going
to fall and they’re going to fall in
the near future’?
...
And what does the complaining
witness [Parsley] say in that
written statement that my client
[Thames] allegedly said?
...

Brooks:

[Reading the written statement:]
She said, ‘Bombs, bombs on
America and bombs will blow up
this building.’

Question:

Those aren’t the same words he
[Parsley] told to Officer Gatti [at

App. 8
the scene] as far as
understand; is that right?
Brooks:

you

I don’t know the exact verbiage
that - - that he [Parsley] said to
Officer Gatti. My - - there’s only
one word that concerns me in this
whole thing and that’s ‘bombs.’
Just like you can’t yell ‘fire’ in a
crowded theater, you can’t say
anything about bombs near a
facility that performs abortions.

When this questioning continued:
Question:

So what was the information - back up - - was the information
that Officer Gatti relayed to you
[regarding Parsley’s accusations
that Thames had threatened a
bombing] - - was that your basis for
ordering the - - directing the arrest
of my client [Thames]?

Brooks:

The information that I was
provided by Officer Gatti [i.e.,
Parsley’s report of Thames’s
statements], and then Officer
Soulliere also - - I talked to him
briefly, and he was advising me
that your client [Thames] was
being very evasive and not
answering any questions
concerning her conversation with
the security guard [Parsley].

App. 9
Question:

What
specifically
was the
information that you relied on to
direct the arrest of my client?

Brooks:

Well, as I just stated, the
information from Officer Gatti that
the security guard had been told by
her [Thames] that there was going
to be bombs dropped or placed or
somehow bombs were going to
affect that facility and the fact that
Officer Soulliere said that she
[Thames] basically refused to say
anything to him in regards to the
conversation she and the security
guard had. She was being very
evasive.

Later in this deposition, Thames’s attorney asked Sgt.
Brooks about the fact that, while recording the events
at the scene, one of the officers’ field microphones
recorded Brooks saying: “Anybody who has anything to
do with this whole thing, they’re fanatics.” Sgt. Brooks
answered that he was not referring to any one side of
the abortion debate and that he meant a “fanatic” as
just being someone who is extremely zealous on a
certain topic—that is, he claimed that he was not
favoring either position but meant both sides of the
abortion issue were “fanatics.” Thames has argued that
this comment is proof of Brooks’s animus against her
beliefs and the motive for her arrest.
Back at the scene: when Officer Soulliere arrested
and handcuffed Thames, she sought assistance from
the nun, who intervened, claiming she had not heard

App. 10
Thames make any bomb threat, implied that Parsley
was lying, and then harangued Soulliere, Gatti, and
Brooks because they were not arresting the clinic’s
owner and employees for “killing God’s children,” were
instead protecting “a Nazi concentration camp,” and
were “wrong” and “evil” for “abid[ing] by the Supreme
Court’s law” rather than “God’s law.” Eventually,
Officer Gatti, clearly frustrated, retorted to the nun:
“You shouldn’t be in the position you are. You’re a
disgrace.”
Meanwhile, Officer Halaas was called away to
another location and had to remove Thames from his
cruiser to Soulliere’s cruiser. The video revealed his
aggravation:
Halaas:

[To Thames:] Alright, come on out
[of Officer Halaas’s cruiser]. I’ve
got to put you in a different car.

Thames:

(inaudible)

Halaas:

Ma’am, we’ve already told you
twice, for terroristic threats. . . .
Hey, who’s in [car number] 16,
she’s going in 16.

Thames:

May I ask what’s going to happen
to me?

Halaas:

Yeah, you’re gonna go to jail.

Thames:

Do I get an attorney? Do I get to
call anyone?

Halaas:

You’ll get one free phone call.
You’ll get an attorney after you’ve

App. 11
been arraigned (inaudible) boy or a
girl, however it works out. Have a
seat. You’ll get a - Thames:

What about my, will I (inaudible)

Halaas:

[Shouting] Have a seat! I’ve gotta
go!

Nun:

[Yelling from distance] You’ve got
the wrong person.

Halaas:

[Shouting at Thames] Get in!

Nun:

You have the wrong person.

Halaas:

[Shouting] Ma’am, I don’t give a
shit! I’ve gotta go!

Concurrently, Officers Soulliere and Halaas
searched Thames and her car, incident to her arrest,
but did not find any explosives or other contraband.
The officers did not evacuate the Clinic or the
surrounding area, nor did they conduct a search of the
Clinic, the adjacent parking lot, or a nearby dumpster.
They did not contact the Michigan State Police to
request bomb sniffing dogs. They did not impound
Thames’s car. At his deposition, Sergeant Brooks
explained:
Question:

There were no like bomb dogs,
sniffing dogs that came to sniff to
see if there was anything in the
panels or interior of [Thames’s]
vehicle; is that right?

App. 12
Brooks:

We would have been searching for
evidence, not necessarily a bomb.

Question:

Did
anybody
search the
surrounding vicinity of the
Northland Family Planning Clinic
for any contraband or a bomb?

Brooks:

At that - - at that point we were
not concerned about a bomb being
physically there at that particular
time because of the amount of
protesters and employees and
patients of the clinic. The reason
we were sent there was because of
the [verbal] threat [by Thames].

Question:

If you thought the threat was
credible, would you not want to
evacuate the building?

Brooks:

Threat doesn’t have to be credible
according to the law.

After arresting Thames, Officer Soulliere drove her
to the Westland police station, booked her, and placed
her in a holding cell where she remained over the
weekend. None of the on-scene officers had any further
contact with her or involvement in her arrest or
detention. When she was released on Monday morning
at 10:14 a.m., she had been in police custody for about
49 hours. The holding cell had a bunk for sleeping and
a toilet, but Thames did not sleep or use the toilet. The
jail’s custody officers brought her food, but she did not
eat. The custody officers did not offer Thames an

App. 13
opportunity to attend mass or receive the Eucharist on
Sunday.
A sergeant at the police station had approved
Officer Soulliere’s arrest report that Saturday but not
until after Detective Jerry Farrar, the on-call detective
that weekend, had ended his shift. On Sunday
morning, Det. Farrar was directed immediately to a
homicide investigation and, therefore, did not address
Thames’s case until Monday morning. At that point,
Det. Farrar interviewed Thames, who waived her right
to an attorney and insisted that she had not made a
bomb threat. Det. Farrar determined that Parsley’s
written statement did not amount to “a direct threat
where [Thames] threatened to bomb the clinic,” and
concluded that, “[e]ven though there was probable
cause to arrest [Thames,] I find at this time there is
insufficient evidence to charge her with a crime,” so he
decided to release her.
The Police Department conducted an internal
investigation. It concluded that the arrest was
“reasonable and justified,” and was consistent with its
policies, practices, and procedures. The report criticized
Officer Halaas for saying “I don’t give a shit,” Sgt.
Brooks for engaging in the political and religious
argument at the scene, and Officer Gatti for saying
“you’re a disgrace” to the nun. The Police Chief, Jeff
Jedrusik, accepted the report’s findings. He
reprimanded Officer Gatti, and cautioned Officer
Halaas and Sgt. Brooks. Deputy Chief Brian Miller, the
representative for this lawsuit, testified during his
deposition that the arrest and detention of Thames in

App. 14
this instance were consistent with the Department’s
policies and practices.
Thames brought a § 1983 suit against the four onscene officers, the Police Chief, and the City of
Westland, claiming false arrest, violation of her rights
to free speech and free exercise of religion (including a
claim of retaliatory arrest), violation of her right to
equal protection, and Monell-based supervisory and
municipal liability.3 The officers sought qualified
immunity on the individual-capacity claims and the
Chief and the City moved for summary judgment on
the official-capacity claims. Thames moved for a
summary-judgment ruling that all defendants were
liable on all claims. Although Thames denied making
any threat or initiating the discussion of bombs, she
agreed that she conversed with Parsley, that Parsley
reported his version of that conversation to the police,
and that the subsequent on-scene interactions with the
responding officers were recorded and are admitted in
this litigation. Moreover, and essential here, Thames
has deliberately pressed her claims, and her arguments
in this appeal, as if she made the statements as Parsley
represented, effectively admitting Parsley’s accusation
of what she said—or conceding any dispute about
it—and arguing only that those statements, considered
in context, would not be sufficiently threatening to
3

Thames had also named the Clinic, its CEO, and the employee
who called 911, but the district court dismissed those defendants
and Thames has not appealed that judgment. Thames had named
the security guard as a “John Doe” defendant but, after learning
his name, never amended her complaint or served him with
process. The district court dismissed the John Doe defendant (i.e.,
Parsley) and Thames has not appealed that judgment.

App. 15
establish probable cause for her arrest. She has
therefore insisted that there are no material facts in
dispute and the only question here is whether, as a
matter of law, her statements as reported by Parsley
and the events in the recordings establish probable
cause.4
The district court reviewed the audio and video
recordings, heard argument from counsel, and denied
both sides’ motions for summary judgment on the falsearrest claim by holding that the controlling
question—whether the officers had probable cause to
arrest Thames—was a disputed question of material
fact for a jury. The court also denied both sides’
motions for summary judgment on the free-speech,

4

Thames asserts this most clearly and emphatically in her final
brief, in which she says: “Based on the undisputed material facts,
there are no statements attributed to [Thames] that qualify as a
‘true threat’ as a matter of law.” Thames’s Reply Br. at 3. “Because
there is no dispute as to any material fact, this appeal raises pure
questions of law. . . . [T]he Officer Defendants do not have to
‘concede’ any facts in this appeal because there is no dispute of any
material fact. . . . [T]his case only raises issues of law for the
[c]ourt to decide.” Reply Br. at 1. “Put another way, both [sides]
agree that there are no factual inferences left for the fact-finder to
draw that could affect the outcome; [the two sides] differ only as to
the legal consequences that follow from those undisputed facts.”
Reply Br. at 2.
Moreover, in her Response to this court’s show-cause order,
Thames said: “The critically important point is that the factual
dispute concerning whether Thames actually made the statements
is not material. What is material to the resolution of this case is
that no statement attributed to Thames qualifies as a true threat
as a matter of law. Accordingly, those statements cannot provide
probable cause for her arrest.”

App. 16
free-exercise, and equal-protection claims for two of the
officers, reserving those claims for a jury, but granted
qualified immunity to the other two officers, finding
that Thames had no evidence to support the claims
against those officers. Finally, the court granted
summary judgment to the Chief and the City, finding
that Thames had not asserted, nor could she prove, a
pattern, policy, or specific action necessary for Monellbased liability claims. See Thames v. City of Westland,
310 F. Supp. 3d 783 (E.D. Mich. 2018).
The officers filed an interlocutory appeal,
challenging the denial of qualified immunity (No. 181576). Thames cross-appealed (No. 18-1608),
challenging the denial of her motion for summary
judgment on liability. Finally, Thames sought and
received from the district court a Rule 54(b)
certification allowing her to appeal immediately the
summary judgment for the Chief and the City (No. 181695). We consolidated the three appeals into this one.
II.
This is an interlocutory appeal in which the
defendant officers and the plaintiff, Thames, challenge
the district court’s denial of their competing motions
for summary judgment, based on qualified immunity
and liability, respectively. Thames also challenges the
grant of summary judgment to the Police Chief and the
City. We must establish our jurisdiction for all three.
A.
The denial of summary judgment is ordinarily not
a final decision within the meaning of 28 U.S.C. § 1291,
and, accordingly, it is generally not immediately

App. 17
appealable. But the “denial of a claim of qualified
immunity, to the extent that it turns on an issue of law,
is an appealable ‘final decision’ within the meaning of
[] § 1291 notwithstanding the absence of a final
judgment.” Mitchell v. Forsyth, 472 U.S. 511, 530
(1985). Our jurisdiction is, however, limited: “we may
not decide a challenge aimed solely at the district
court’s determination of the record-supported evidence,
but we may decide a challenge with any legal aspect to
it, no matter that it might encroach on the district
court’s fact-based determinations.” Bunkley v. City of
Detroit, 902 F.3d 552, 560 (6th Cir. 2018). Under our
pragmatic approach, we “excise the prohibited factbased challenge so as to establish jurisdiction.” Id. In
so doing, “we follow the same path as did the district
court—considering the sufficiency of the plaintiff’s
proffered evidence, drawing all reasonable inferences
in the plaintiff’s favor—and, ideally, we would need
look no further than the district court’s opinion for the
pertinent facts and inferences.” Id. (citation omitted).
But we are not limited to only those facts and
inferences; rather, we must make our legal
determination “based on th[e] now (for this purpose)
undisputed record facts.” Id. (citations omitted).
Proceeding in this manner, we have jurisdiction
over this interlocutory appeal from the denial of
qualified immunity. Moreover, in deciding this “purely
legal” question, we can rely on Thames’s stipulation
that Parsley’s recitation of her statements was true,
and our own plenary review of the videotape
recordings. See Scott v. Harris, 550 U.S. 372, 380-81
(2007) (“The Court of Appeals . . . should have viewed
the facts in the light depicted by the videotape.”).

App. 18
B.
Thames has correspondingly appealed the denial of
her motion for summary judgment, in which she sought
a determination of liability on the same claims (and
facts) on which the officers sought qualified immunity.
“[U]pon establishing interlocutory jurisdiction over the
qualified-immunity aspect of the appeal, we are
frequently presented with questions of our pendent
appellate jurisdiction.” Bunkley, 902 F.3d at 561
(citations omitted). In such cases, “[p]endent appellate
jurisdiction may be exercised only when the immunity
issues absolutely cannot be resolved without
addressing the nonappealable [pendent] issues.” Id.
(alterations in original, citation omitted). Here, the
question of the officers’ liability is so completely
intertwined with the claims of qualified immunity that
we find that one necessarily resolves the other and
establishes pendent appellate jurisdiction.
C.
Thames also appeals the grant of summary
judgment to the Police Chief and the City on her
Monell claims. Ordinarily, rulings that do not dispose
of all parties and all claims do not end the action and
are, therefore, not immediately appealable. But if the
district court “expressly determines that there is no
just reason for delay,” it may “direct entry of a final
judgment as to one or more, but fewer than all, claims
or parties.” Fed. R. Civ. P. 54(b); Libertarian Party of
Ohio v. Husted, 808 F.3d 279, 280 (6th Cir. 2015) (a
Rule 54(b) order “make[s] a non-appealable order an
appealable judgment”). We therefore have jurisdiction
over this appeal.

App. 19
III.
Qualified immunity shields government officials in
the performance of discretionary functions from
standing trial for civil liability unless their actions
violate clearly established rights of which a reasonable
person would have known. Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982). The plaintiff in a § 1983 action
against such an official bears the burden of overcoming
the qualified-immunity defense. Quigley v. Tuong Vinh
Thai, 707 F.3d 675, 681 (6th Cir. 2013). At the
summary-judgment stage, the plaintiff must show that
(1) the defendant violated a constitutional right and
(2) that right was clearly established. Id. at 680. At a
minimum, this requires evidence of a “genuine issue of
fact”; that is, “evidence on which [a] jury could
reasonably find for the plaintiff.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 252 (1986).
A.
The district court denied the summary-judgment
motions by both the defendant officers and Thames
based on its belief that the determination of whether
Thames’s statements were “true threats” was a
question for the jury. All parties contend that this
belief was wrong.
The police arrested Thames on a violation of a
Michigan statute titled “making a terrorist threat,”
which is codified as a specific provision of Michigan’s
Anti-Terrorism Act and says:
(1)

A person is guilty of making a terrorist
threat or of making a false report of

App. 20
terrorism if the person does either of the
following:
(a)

Threatens to commit an act of
terrorism and communicates the
threat to any other person[, or]

(b)

Knowingly makes a false report of
an act of terrorism and
communicates the false report to
any other person, knowing the
report is false.

(2)

It is not a defense to a prosecution under
this section that the defendant did not
have the intent or capability of
committing the act of terrorism.

(3)

[This] is . . . a felony punishable by
imprisonment for not more than 20 years
or a fine of not more than $20,000, or
both.

M.C.L. § 750.543m. In 2007, in a case challenging the
constitutionality of this statute—on a claim that it was
vague or overbroad—the Michigan Court of Appeals
held it constitutional:
[This statute] prohibit[s] only ‘true threats’ as
they encompass the communication of a serious
expression of an intent to commit an act of
unlawful violence to a particular individual or
group of individuals. Further, because the
statutes require the existence of an intent to
‘intimidate or coerce,’ they extend beyond the
type of speech or expressive conduct that is

App. 21
afforded protection by the First Amendment. As
such, the statutes are neither unconstitutionally
vague nor overbroad.
Michigan v. Osantowski, 736 N.W.2d 289, 298 (Mich.
Ct. App. 2007) (citing Virginia v. Black, 538 U.S. 343,
359 (2003), for the meaning of “true threat”), rev’d for
resentencing, 748 N.W.2d 799 (Mich. 2008). As defined
here, “true threats” are “statements where the speaker
means to communicate a serious expression of an
intent to commit an act of unlawful violence to a
particular individual or group of individuals.” Id. at
297 (quoting Black, 538 U.S. at 359). Two caveats.
First, although this holding limits the statute to only
true threats, the statute also includes “false reports” of
true threats, M.C.L. § 750.543m(1)(b). And, “the
defendant [need] not have the intent or capability of
committing the” true threat, id. at § (2). This latter
provision is why Sgt. Brooks and the other officers
asserted at their depositions that, as they understand
the law, the “[t]hreat doesn’t have to be credible.”
In this case and this appeal, we proceed on the
understanding that Thames made certain statements
to Parsley, something like: “I prophesy bombs are going
to fall, they’re going to fall in the near future, they’re
going to fall on you people, and on America, and bombs
will blow up this building.” Thames does not dispute
the content of these statements but contends that, even
if she said that, it does not rise to the level of a “true
threat.” Nor does Thames dispute that Parsley was
both alarmed enough that he reported this immediately
to Guilbernat, who immediately called 911, and sincere
enough that he repeated his accusations to the

App. 22
responding officers, identified Thames at the scene
(and directed the officers to her), and swore out a
written statement. While Thames is correct that a
listener’s subjective fear alone is not enough to turn an
innocuous statement into a true threat (via a “heckler’s
veto”), Parsley’s response is still meaningful. Four
other facts bear mention. One, Thames said “bombs.”
She did not threaten brimstone, or God’s fiery wrath, or
something that might be considered overzealous
proselytizing—she said “bomb.” Two, she approached
and said it, discreetly, to the security guard—she did
not say it to staff passing by, or patients, or
bystanders—and she did not say it where anyone else
could hear her. Three, following this conversation,
Thames refused to let Parsley photograph her and,
without explanation to Parsley, immediately got into
her car and drove off. She did return, but not until
after the police had arrived. And, finally, when
questioned, Thames emphatically denied making any
bomb threat, but she was actively evasive and
unwilling to tell Officer Soulliere what she had said to
Parsley, even though Soulliere asked multiple times
and stressed to her the importance of her answer.
The fundamental dispute here is whether the
officers had probable cause to arrest Thames for her
statements, but more specifically whether Thames’s
statements were “true threats.” In a simplified sense,
if they were “true threats,” the officers had probable
cause to arrest Thames and they win; if not, they
arrested Thames without probable cause and she wins.
Both sides insist this is not a question of fact for a jury
but a strictly legal decision for the court. They are
wrong.

App. 23
“The jury determines whether a statement is a true
threat.” United States v. Hankins, 195 F. App’x 295,
301 (6th Cir. 2006); Osantowski, 736 N.W.2d at 302
(“As an issue of fact, the determination whether a
statement was a true threat is generally a question for
the jury.”); accord Michigan v. Pilette, No. 266395, 2006
WL 3375200, at *7 (Mich. Ct. App. Nov. 21, 2006); cf
United States v. Houston, 683 F. App’x 434, 438 (6th
Cir. 2017). Because Thames’s false-arrest claim turns
on this disputed question of fact for the jury to decide,
the district court properly denied her motion for
summary judgment on that claim. But whether that
claim survives for trial is dependent on whether the
officers are entitled to qualified immunity. And
qualified immunity is different.
“Qualified immunity gives government officials
breathing room to make reasonable but mistaken
judgments . . . .” Stanton v. Sims, 571 U.S. 3, 6 (2013)
(citations omitted). “This accommodation for reasonable
error exists because officials should not err always on
the side of caution because they fear being sued.”
Hunter v. Bryant, 502 U.S. 224, 229 (1991) (quotation
marks and citations omitted). Therefore, the qualifiedimmunity question does not require a decision that the
statements were or were not true threats, but only a
determination of whether the officers’ (even mistaken)
belief that the statements were true threats was
unreasonable. Moreover, because the dashcam videos
provide the relevant facts, the panel does not need to
defer to the district court’s fact finding or construe
inferences in favor of the non-moving party (Thames);
the panel can decide for itself whether “the events

App. 24
recorded on the tape justified the officers’ conduct.” See
Plumhoff v. Rickard, 572 U.S. 765, 775 (2014).
Because Thames does not raise as a genuine issue
of material fact whether she made the statements as
Parsley represented, but only contends that those
statements could not be true threats, we accept here
that she forewarned of a bombing of the Clinic building
in the near future. She initiated the conversation with
Parsley, the security guard, and, though perhaps
coincidentally, made the statements to him when and
where no one else could hear them. Afterwards, she
refused Parsley’s attempts to photograph her and
immediately drove off, which was reported to the police
even though she did return, explaining that she had
gone to use the restroom. Parsley reacted as if he
believed her, prompting the call to 911, identifying and
accusing her for officers at the scene, and completing a
written statement. See France v. Lucas, 836 F.3d 612,
626 (6th Cir. 2016) (“An eyewitness identification will
constitute sufficient probable cause unless there is an
apparent reason for the officer to believe that the
eyewitness was lying, did not accurately describe what
he had seen, or was in some fashion mistaken
regarding his recollection of the confrontation.”
(editorial marks and citation omitted)). And we see for
ourselves in the video Thames’s evasiveness and
refusal to answer the direct and repeated question of
what she had alternatively said to Parsley. See District
of Columbia v. Wesby, 583 U.S. --, 138 S. Ct. 577, 587
(2018) (a “suspect’s untruthful and evasive answers to
police questioning could support probable cause”
(quotation marks and citation omitted)). Based on this,

App. 25
Sgt. Brooks’s decision to arrest Thames for making a
true threat was not unreasonable.
The officers were entitled to qualified immunity on
Thames’s false-arrest claim.

App. 26
B.
The district court granted qualified immunity to
Officers Soulliere and Tardif on Thames’s free-speech
(retaliatory arrest), freedom-of-religion, and equalprotection claims, but denied qualified immunity to
Sgt. Brooks and Officer Gatti on these claims. The
district court also denied Thames’s motion for
summary judgment on these claims. Both sides appeal.
In Lozman v. City of Riviera Beach, 585 U.S. --, 138
S. Ct. 1945, 1951 (2018), the Supreme Court granted
certiorari to consider whether the existence of probable
cause necessarily bars a First-Amendment-based
retaliatory-arrest claim, but ultimately determined
that it need not—and therefore would not—answer
that question, and declined to set the test for proving a
retaliatory-arrest claim in the ordinary course, id. at
1955. Despite its sidestepping the issue, the Court
made a significant ruling and the Lozman opinion
controls the analysis here.
The Court identified two potentially applicable
tests: the Hartman test, which requires that “a plaintiff
alleging a retaliatory prosecution must show the
absence of probable cause for the underlying criminal
charge . . . [or else] the case ends,” id. at 1952
(discussing Hartman v. Moore, 547 U.S. 250, 265-66
(2006)); and the Mt. Healthy test, which allows a
plaintiff to prevail by showing that the retaliation was
the “but-for cause” of the governmental action (i.e., the
arrest), regardless of the existence of probable cause,
see id. at 1952 (discussing Mt. Healthy City Sch. Dist.
Bd. of Educ. v. Doyle, 429 U.S. 274, 285-87 (1977)). The

App. 27
Court opined on the relative pros and cons of the two
tests before changing the question.
The City’s argument here is that, just as
probable cause is a bar in retaliatory prosecution
cases [under Hartman], so too should it be a bar
in this case, involving a retaliatory arrest. There
is undoubted force in the City’s position. There
are on average about 29,000 arrests per day in
this country. In deciding whether to arrest [a
suspect], police officers often make split-second
judgments. The content of the suspect’s speech
might be a consideration in circumstances where
the officer must decide whether the suspect is
ready to cooperate, or, on the other hand,
whether he may present a continuing threat to
interests that the law must protect.
For these reasons retaliatory arrest claims,
much like retaliatory prosecution claims, can
present a tenuous causal connection between the
defendant’s alleged animus and the plaintiff’s
injury. That means it can be difficult to discern
whether an arrest was caused by the officer’s
legitimate or illegitimate consideration of
speech. And the complexity of proving (or
disproving) causation in these cases creates a
risk that the courts will be flooded with dubious
retaliatory arrest suits.
[T]here are [also] substantial arguments that
Hartman’s framework is inapt in retaliatory
arrest cases, and that Mt. Healthy should apply
without a threshold inquiry into probable cause.
For one thing, the causation problem in

App. 28
retaliatory arrest cases is not the same as the
[prosecution] problem identified in Hartman
. . . . [I]n retaliatory prosecution cases, the
causal connection between the defendant’s
animus and the prosecutor’s decision to
prosecute is weakened by the presumption of
regularity accorded to prosecutorial decisionmaking. That presumption does not apply in [the
arrest] context. In addition, there is a risk that
some police officers may exploit the arrest power
as a means of suppressing speech.
Id. at 1953 (quotation marks and citations omitted).
The Lozman Court held that, on the unique facts of
that case, “Mt. Healthy provides the correct standard
for assessing a retaliatory arrest claim,” id. at 1955,
but it refused to displace Hartman or to establish Mt.
Healthy as the only test for assessing a retaliatory
arrest claim, due to the foreseeable “difficulties that
might arise if Mt. Healthy [were] applied to the mine
run of arrests made by police officers,” id. at 1954. The
Court considered only these two tests and did not
suggest the possibility of any other test.
Applying Hartman to the present facts, beginning
with the officers’ reasonable belief that they had
probable cause (as established above) for this run-ofthe-mine arrest, Thames’s failure to disprove probable
cause necessarily defeats her claims that the officers
are liable for wrongfully arresting her as retaliation for
exercising her First Amendment rights to free speech
and religion by protesting at the Clinic. Even using the
Mt. Healthy test, Thames’s claim fails because she has
no evidence to show that the alleged retaliation was the

App. 29
“but-for cause” of her arrest. Given that none of the
other protesters were arrested, particularly the far
more effectively antagonistic nun, the officers’
comments at the scene (i.e., Officer Halaas’s hostile
shout of “I don’t give a shit,” Sgt. Brooks’s expression of
his opinion that “anybody who has anything to do with
this thing is a fanatic,” and Officer Gatti’s insult to the
nun, calling her a “disgrace”) do not demonstrate that
they would not have arrested Thames “but for” her
anti-abortion protesting. Rather, they arrested her for
making what they reasonably accepted as being a bomb
threat and for behaving in an evasive manner during
the investigation of it.
Thames next claims that, aside from the alleged
retaliation, the officers—by arresting her—also
violated her First Amendment rights to free speech and
free exercise of religion by removing her from the
public sidewalk in front of the Clinic. This claim
presupposes the accuracy of Thames’s contention that
they arrested her because she was engaging in
protected First Amendment activity. That is incorrect.
The officers arrested her because they reasonably
believed that she made an illegal bomb threat. That is
speech that is not protected by the First Amendment.
The possibility or likelihood that Thames would have
been engaged in protected First Amendment activities
had she not been arrested is irrelevant. Had the police
arrested her for anything from jaywalking to murder,
they would also have removed her—as they would
remove any similarly arrested person—from the public
sidewalk, without regard to her intent or desire to
exercise her otherwise constitutionally protected right
to speak, pray, or proselytize on that sidewalk at that

App. 30
time. This claim does not allege a constitutional
violation.
Thames next claims that the officers and the City
violated her right to the free exercise of religion
because, while detaining her, they prevented her from
attending mass and receiving the Eucharist on Sunday.
Thames has no evidence that the arresting officers had
any involvement in the duration or conditions of her
detention after her arrest, and the record shows that
they did not. Moreover, Thames has provided no
pertinent legal authority to support her claim that she
has a First Amendment free-exercise right to religious
visits or receiving of the Eucharist during short-term
(weekend) detention following arrest and pending
arraignment.
Thames also raised an equal-protection claim on the
basis that the officers did not arrest Parsley for saying
“bomb” but arrested her for saying “bomb,” contending
that this was solely because she was exercising her
fundamental First Amendment right to protest
abortion. “To state an equal protection claim, a plaintiff
must adequately plead that the government treated the
plaintiff disparately as compared to similarly situated
persons and that such disparate treatment either
burdens a fundamental right, targets a suspect class,
or has no rational basis,” with “the threshold element”
being “disparate treatment.” Ctr. for Bio-Ethical
Reform, Inc. v. Napolitano, 648 F.3d 365, 379 (6th Cir.
2011) (quotation marks and citations omitted). But
Parsley was neither protesting nor making threats; he
was on the job as a security guard. Thames was not
similarly situated to Parsley. Moreover, Thames was

App. 31
not similarly situated to the other protesters, such as
the nun (who argued with and harangued the officers),
because those other protesters did not vocalize any
bomb threat. There is no “fundamental right” to make
a bomb threat. It was because of the bomb threat that
the police arrested Thames but not the other
protesters. There is a rational basis for differentiating
between people who voice bomb threats and everyone
else.
Thames alternatively argues that she “was arrested
because she was pro-life” and “[t]he very basis for the
arrest [was] Defendant Brooks’[s] assertion that a prolifer cannot utter the word ‘bomb’ outside of an abortion
center.” But Sgt. Brooks did not say that a “pro-lifer”
cannot use the word “bomb” outside an abortion clinic,
he said “you” cannot, without any specification as to
whether “you” would be pro-life, pro-choice, pro- or conanything. More importantly, abortion protesters are
not a protected class. Norton v. Ashcroft, 298 F.3d 547,
559 (6th Cir. 2002). And, as just established, Thames
was not similarly situated to anyone who was treated
differently.
The on-scene officers are entitled to qualified
immunity on these claims. The district court was
correct in denying summary judgment to Thames and
it was correct in granting summary judgment and/or
qualified immunity to Officers Soulliere and Tardif.
But the district court erred in denying qualified
immunity to Sgt. Brooks and Officer Gatti on these
claims.

App. 32
C.
Thames argues that the district court erred by
granting summary judgment to the Police Chief and
the City, in their official capacities, on her claims of
supervisory and Monell liability. Thames contends that
the City and the Police Chief are liable because the
officers acted pursuant to City policy and the Chief
ratified their actions, thus effectuating the policy. But
because the officers did not violate any of Thames’s
constitutional rights, the policies or ratification are
irrelevant, and Thames cannot hold the City or the
Chief liable. See City of Los Angeles v. Heller, 475 U.S.
796, 799 (1986) (“If a person has suffered no
constitutional injury at the hands of the individual
police officer, the fact that the [policy, practice, or
custom] might have authorized the [action] is quite
beside the point.”); Vereecke v. Huron Valley Sch. Dist.,
609 F.3d 392, 404 (6th Cir. 2010) (“Because the
individual defendants did not violate his constitutional
rights under the First Amendment, Vereecke cannot
rely on their conduct to establish . . . municipal
liability.”).
The district court’s grant of summary judgment to
the City and the Chief was proper.
IV.
For the foregoing reasons, we REVERSE the
judgment of the district court denying qualified
immunity, AFFIRM the judgment of the district court
denying summary judgment to Thames and granting
summary judgment to the City and Chief, and

App. 33
REMAND for entry of an order consistent with this
opinion.

App. 34

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CASE NO. 16-CV-14130
HON. GEORGE CARAM STEEH
[Filed June 18, 2018]
_____________________________
KIMBERLY THAMES,
)
)
Plaintiff,
)
)
v.
)
)
CITY OF WESTLAND, et al., )
)
Defendants.
)
_____________________________ )
JUDGMENT
The above entitled matter has come before the court
on the parties’ cross-motions for summary judgment,
and in accordance with the court’s order (Doc. 49),
granting Defendants City of Westland and Jeff
Jedrusik’s motion for summary judgment,
IT IS ORDERED AND ADJUDGED that judgment
hereby is GRANTED in favor of Defendants City of
Westland and Jeff Jedrusik.

App. 35
DAVID J. WEAVER
CLERK OF THE COURT
BY:

s/Marcia Beauchemin
DEPUTY COURT CLERK

Dated: June 18, 2018
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 36

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CASE NO. 16-CV-14130
HON. GEORGE CARAM STEEH
[Filed April 20, 2018]
_____________________________
KIMBERLY THAMES,
)
)
Plaintiff,
)
)
v.
)
)
CITY OF WESTLAND, et al., )
)
Defendants.
)
_____________________________ )
OPINION AND ORDER GRANTING IN PART
AND DENYING IN PART DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT (Doc.
35) AND DENYING PLAINTIFF’S MOTION FOR
PARTIAL SUMMARY JUDGMENT (Doc. 36)
I. Overview
Plaintiff Kimberly Thames, a 57-year old pro-life
advocate, brought this 42 U.S.C. § 1983 suit arising out
of her arrest and weekend detention at a Westland

App. 37
police station holding cell, after an abortion clinic’s
security guard accused her of stating, “I prophesy
bombs, I prophesy bombs. There is going to be a
bombing in the near future.” Thames denies making
any statement involving the word, “bombs.” Thames
brought suit against Defendants the City of Westland,
the Westland Chief of Police, four Westland police
officers involved in her arrest, the Northland Family
Planning Clinic, Inc. (“Northland”) and its Chief
Executive Officer, Renee Chelian, its employee Mary
Guilbernat, and John Doe, the clinic’s security guard.
By prior order of the court, Northland, Chelian, and
Guilbernat have been dismissed. Now before the court
is a motion for summary judgment brought by the
remaining Defendants as to the federal claims, and a
cross-motion for partial summary judgment as to
liability brought by Thames for most of the same
claims. Oral argument was heard on March 15, 2018
and informs this court’s decision. Also, in rendering its
decision here, the court has reviewed the audiotape of
the 9-1-1 call and various video recordings of Thames’
arrest.
For the reasons set forth below, summary judgment
shall enter for the City of Westland and Police Chief
Jedrusik because there is no basis for Monell or
supervisory liability. However, Defendants’ motion for
summary judgment for the arresting Defendants on
Plaintiff’s Fourth Amendment wrongful arrest claim
shall be denied. Also, Defendants’ motion for summary
judgment shall be denied as to Plaintiff’s First
Amendment retaliatory arrest claim and Fourteenth
Amendment equal protection claim as to Defendants
Officer Gatti and Sergeant Brooks, but shall be granted

App. 38
as to Officers Soulliere and Tardif. Plaintiff’s motion for
partial summary judgment as to liability shall be
denied.
II. Factual Background
On Saturday, August 27, 2016, Thames, a Roman
Catholic and pro-life supporter, stood on a public
sidewalk outside the Northland abortion clinic holding
a rosary and a sign in defense of the unborn. Thames
was known to the Northland clinic as a frequent
protestor. At the same time, a religious sister was also
peacefully protesting near Thames. Thames engaged
the security guard, Robert Parsley, standing outside
the clinic in conversation and informed him that she
was praying for him and hoped he could find a new
position. She alleges that he then informed her that
there have been bomb threats against abortion clinics,
to which she claims she responded that she was not
aware of any bombings in Michigan. After their
conversation, Thames left in her car to use a nearby
restroom.
Parsley’s version of their conversation is quite
different. In two different accounts, he claims that
Thames threatened that bombs would fall. He reported
these allegations to employees of the clinic. One of the
clinic’s employees, defendant Guilbernat, placed a 9-1-1
call to the police. In that call, Guilbernat stated, “We
have protestors outside and one of them just made a
statement that there’s going to be a bombing.” (Doc. 35,
Ex. B at 00:04:09). The 9-1-1 operator asks her, “What
exactly did they say?” Id. at 00:09:12, and Guilbernat
repeats, “There’s going to be a bombing.” Id. at 00:1214. The operator sought a second time to clarify the

App. 39
threat, asking, “That’s all they said is there’s going to
be a bombing? That’s what they said, word for word?”
Id. at 00:14-18. To which Guilbernat, replied, “Yes.” Id.
at 00:18-19. The operator then sought a third time to
clarify the threat, to which Guilbernat accused Thames
of stating “there’s going to be a bombing.” Id. at 01:5758.
Guilbernat then gave the operator a description of
the woman in question, describing her as dark
complexioned, with dark hair in a bun, wearing a light
blue short-sleeved top, a long blue skirt and flip-flops.
Id. at 00:30-33, 1:01-11. In response to the 9-1-1 call,
four Westland police officers responded to the clinic:
Officers Jason Soulliere, John Gatti, Adam Tardif, and
Sergeant Norman Brooks. These officers are named
Defendants. Officer Halaas appeared later on the
scene, and he has not been named in the lawsuit.
Thames returned to the location to continue
protesting and saw several police vehicles and officers
speaking to Parsley. Officer Gatti arrived on the scene
first and interviewed Parsley and Guilbernat. Both
identified Thames to him as the person who had made
the statement. (Doc. 36, Ex. B at 8:50:19-25, 08:51:41-2,
08:52:01-03). Parsley told Officer Gatti that Thames
stated, “I prophesy bombs are going to fall and they’re
going to fall in the near future.” (Doc. 36, Ex. B at
8:51:31-8:52:53, Ex. K at 53:5-23). Parsley also accused
Thames of stating, “I prophesy bombs are going to fall
and they’re going to fall on you people.” (Doc. 40, Ex. E
at 08:52:46-52). But when Parsley gave his written
statement to Defendant Tardif a few minutes later, his
story changed and he accused Thames of stating,

App. 40
“bombs, bombs, on America, and bombs will blow up
this building.” (Doc. 36, Ex. E, Ex. M at 18:22-25 and
19:1-3).
Officer Soulliere asked Thames if she had made a
bomb threat, and she denied it. (Doc. 36, Ex. J at 40:2325-51:1-20; Ex. B at 8:51:21-8:15:36). But she never
specifically answered Officer Soulliere’s questions
about what exactly she did say to the guard, merely
reiterating that she did not make a bomb threat, did
not know what she had said to him that could have
been misconstrued, and mentioned that he was the one
who brought up alleged bombings at abortion clinics.
Id. at 08:51:41-2, 08:51:43-08:52:31; Doc 36-3, 57:24-25
to 58:1-17. She also relayed her conversation with
Parsley in which he told her about bombings for which
she responded she was unaware of that activity. (Doc.
36, Ex. J at 57:24-25-58:1-17, Ex. B at 8:53:47-8:55:07;
Ex. I at 42:18-25; 51:1-4; Ex. 1 at ¶18).
The senior officer on the scene, Sergeant Brooks,
ordered Thames’ arrest for making a terrorist threat.
(Doc. 35, Ex. C at 30). Specifically, she was arrested for
violating Michigan’s anti-terrorism statute, Mich.
Comp. Laws § 750.543m. Thames has not challenged
the constitutionality of the statute. Officer Soulliere
then handcuffed Thames. (Doc. 35, Ex. D at 30). After
her arrest, Thames pleaded with the religious sister to
come to her aid. (Doc. 36, Ex. J at 68:14-15). The
religious sister told Officer Soulliere that she did not
hear Thames make a bomb threat, implored him to
question Thames and Parsley together so he could
determine who was lying, and insisted that the ones
that should be arrested were the clinic’s owner and

App. 41
staff who were the ones “killing God’s children.” (Doc.
36, Ex. J at 69:12-71:22). Officer Gatti told the religious
sister that she was a “disgrace.” (Doc. 36, Ex. K at
19:23-25-20:1-5). The officers did not take a written
statement from the sister or from two other persons
who were outside the clinic when the alleged threat
was made. (Doc. 36, Ex. J at 59:13-25-60:1-13; Ex. L at
23:24-25 – 24:1-5).
After Thames’ arrest, she was placed in the back of
Officer Halaas’ patrol vehicle, but when he was called
away to respond to another incident, she was moved to
Officer Soulliere’s patrol vehicle. (Doc. 35, Ex. E at
08:57:35-09:01:49; Ex. F at 75-5). At the time she was
placed in Officer Halaas’ vehicle, Thames told him,
“You got the wrong person,” to which he replied,
“Ma’am, I don’t give a shit! I got to go!” (Doc. 36, Ex. O
at 46:18-25 to 47:1-10). After her arrest, Officers
Soulliere and Halaas searched her vehicle, but did not
find any explosives or any other contraband. (Doc. 35,
Ex. E at 08:57:36-09:02:50; Ex. F at 72-3.) The officers
did not search the clinic, the adjacent parking lot, or
nearby dumpster, nor did they use any bomb sniffing
dogs. In fact, the Westland police department does not
have any bomb sniffing dogs, but would have to call the
state police for such a search. The officers did not
impound Thames’ vehicle.
Officers Gatti and Soulliere testified at their
depositions that the City of Westland did not train
them to distinguish between true threats and protected
speech. (Doc. 36, Ex. J at 36:16-19, Ex. K at 117:4-7).
Sergeant Brooks testified:

App. 42
I don’t know the exact verbiage that — that he
said to Officer Gatti. My — there’s only one word
that concerns me in this whole thing and that’s
bombs. Just like you can’t yell fire in a crowded
theater, you can’t say anything about bombs
near a facility that performs abortions.
(Doc. 36, Ex. at 29:20-25). At his deposition, Sergeant
Brooks was asked why the officers did not search the
surrounding vicinity of the abortion clinic for a bomb,
and he responded:
At that — at that point we were not concerned
about a bomb being physically there at that
particular time because of the amount of
protesters and employees and patients of the
clinic. The reason we were sent there was
because of the threat.
(Doc. 36, Ex. L at 28:9-13). Sergeant Brooks was then
asked, if the threat was credible, why did they not
evacuate the clinic, and he responded, the “threat
doesn’t have to be credible according to the law.” Id. at
16-17. In addition, at the scene of the arrest, Sergeant
Brooks also said, “Anybody who has anything to do
with this whole thing, [they’re] fanatics.” (Doc. 36, Ex.
C at PgID 597).
Soulliere drove Thames to the Westland police
station, booked and placed her in a holding cell where
she remained over the weekend. (Doc. 36, Ex. O at
63:1-10). She was released Monday morning at 10:14
a.m. Thus, she was in police custody for a little over 49
hours. Thames did not eat or sleep during that time,
although she was offered food. (Doc. 36, Ex. 1 at ¶¶ 25-

App. 43
40). The holding cell had a cement slab for sleeping and
a toilet which was visible to all. (Doc. 36, Ex. 1 at
¶¶ 25-40, Ex. G).
Officer Soulliere’s report regarding Thames’ arrest
would not have come to the attention of the on-call
detective that weekend, Detective Jerry Farrar, until
Sunday because the report was not approved by a
sergeant until after Detective Farrar’s shift ended on
Saturday. (Doc. 45, Ex. J at 18-21). Detective Farrar
was handling a homicide investigation which began on
Sunday morning, and thus, was not able to address
Thames’ case until Monday morning. (Doc. 45, Ex. I at
65:22-25-66:1-13; Ex. J at 19-21, 22-28, 39). Thames
was unable to attend Mass on Sunday or receive the
Eucharist. (Doc. 36, Ex. 1 at ¶ 34). Upon reviewing the
case, Detective Farrar made the decision to release
Thames finding that “though there was probable cause
to arrest Kimberley, I find at this time there is
insufficient evidence to charge her with a crime.” (Doc.
45, Ex. J at 27:8-12).
Detective Farrar did not talk to the prosecutor
before making his decision. Id. at 25:9-12. In his
incident report, Detective Farrar wrote that he read
Robert’s written statement accusing Thames of stating
“bombs, bombs, bombs on America. And bombs will
blow up this building,” and determined that “I do not
see a direct threat where Kimberly threatened to bomb
the clinic.” (Doc. 36-3 at PgID 611). After her release,
the police denied Thames’ request that they take her to
her car so she walked about a mile to her vehicle. (Doc.
36, Ex. 1 at ¶ 44).

App. 44
After Thames’ release, the City police department
conducted an internal investigation, and concluded that
Thames’ arrest was reasonable and justified and was
consistent with its policies, practices, and procedures.
(Doc. 36, Ex. O at 49:5-10, 91:5-22, Ex. C). However,
Officer Gatti received a verbal reprimand for telling the
religious sister that she was a disgrace. (Doc. 36, Ex. O
at 47:17-48:2). The Chief of Police, Jeff Jedrusik,
reviewed the report of the internal investigation and
accepted its findings. (Doc. 36, Ex. O at 44:6-25-45:1-3).
Deputy Chief Brian Miller, the witness designated by
the City pursuant to Federal Rule of Civil Procedure
30(b)(6), testified Thames’ arrest and detention were
consistent with the policies and practices of the police
department. (Doc. 36, Ex. O at 86:1-10). However,
Officers Gatti and Sergeant Brooks were cautioned to
refrain from “[e]ngaging in political or
religious/morality discussions with bystanders.” (Doc.
36, Ex. C at 18).
Thames filed this 42 U.S.C. § 1983 lawsuit against
the City of Westland; Police Chief Jeff Jedrusik;
Officers Soulliere, Gatti, Tardif, and Brooks;
Northland, Northland’s CEO Chelian, Northland’s
employee Guilbernat, and John Doe, Northland’s
security guard. Northland, Chelian, and Guilbernat
have been dismissed by prior order of the court.
Thames’ Complaint alleges violations of her Fourth,
First, and Fourteenth Amendment rights and two
related state law claims.
III. Standard of Law
Federal Rule of Civil Procedure 56(c) empowers the
court to render summary judgment “forthwith if the

App. 45
pleadings, depositions, answers to interrogatories and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to judgment
as a matter of law.” See Redding v. St. Eward, 241 F.3d
530, 532 (6th Cir. 2001). The Supreme Court has
affirmed the court’s use of summary judgment as an
integral part of the fair and efficient administration of
justice. The procedure is not a disfavored procedural
shortcut. Celotex Corp. v. Catrett, 477 U.S. 317, 327
(1986); see also Cox v. Kentucky Dep’t of Transp., 53
F.3d 146, 149 (6th Cir. 1995).
The standard for determining whether summary
judgment is appropriate is “‘whether the evidence
presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.’” Amway
Distributors Benefits Ass’n v. Northfield Ins. Co., 323
F.3d 386, 390 (6th Cir. 2003) (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 251-52 (1986)). The
evidence and all reasonable inferences must be
construed in the light most favorable to the non-moving
party. Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986); Redding, 241 F.3d at
532 (6th Cir. 2001). “[T]he mere existence of some
alleged factual dispute between the parties will not
defeat an otherwise properly supported motion for
summary judgment; the requirement is that there be
no genuine issue of material fact.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48 (1986) (emphasis in
original); see also National Satellite Sports, Inc. v.
Eliadis, Inc., 253 F.3d 900, 907 (6th Cir. 2001).

App. 46
If the movant establishes by use of the material
specified in Rule 56(c) that there is no genuine issue of
material fact and that it is entitled to judgment as a
matter of law, the opposing party must come forward
with “specific facts showing that there is a genuine
issue for trial.” First Nat’l Bank v. Cities Serv. Co., 391
U.S. 253, 270 (1968); see also McLean v. 988011
Ontario, Ltd., 224 F.3d 797, 800 (6th Cir. 2000). Mere
allegations or denials in the non-movant’s pleadings
will not meet this burden, nor will a mere scintilla of
evidence supporting the non-moving party. Anderson,
477 U.S. at 248, 252. Rather, there must be evidence on
which a jury could reasonably find for the non-movant.
McLean, 224 F.3d at 800 (citing Anderson, 477 U.S. at
252).
IV. Analysis
A. Arresting Officers
1. Qualified Immunity
Defendant officers argue qualified immunity shields
them from liability under § 1983. Qualified immunity
“‘protects government officials from liability for civil
damages insofar as their conduct does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known.’”
Stanton v. Sims, 571 U.S. 3, 4–5 (2013) (quoting
Pearson v. Callahan, 555 U.S. 223, 231 (2009)). It
protects all officers except “the plainly incompetent or
those who knowingly violate the law.” Hunter v.
Bryant, 502 U.S. 224, 229 (1991) (citation and internal
quotation marks omitted). As the Supreme Court has
explained, “[t]his accommodation for reasonable error

App. 47
exists because ‘officials should not err always on the
side of caution’ because they fear being sued.” Id.
(citation omitted). Indeed, qualified immunity “gives
government officials breathing room to make
reasonable but mistaken judgments. . . .” Stanton, 571
U.S. at 5 (citing Ashcroft v. al-Kidd, 563 U.S. 731, 743
(2011) (quotation marks omitted)).
The court employs a two-step inquiry in deciding
qualified immunity questions. Baynes v. Cleland, 799
F.3d 600, 610 (6th Cir. 2015). “‘First, viewing the facts
in the light most favorable to the plaintiff, has the
plaintiff shown that a constitutional violation has
occurred? Second, was the right clearly established at
the time of the violation? These prongs need not be
considered sequentially.’” Id. (internal quotations
marks and citation omitted). Where there is no showing
of a constitutional violation, the officer is cloaked with
qualified immunity and the court need not address the
second prong. Arrington-Bey v. City of Bedford Heights,
858 F.3d 988, 992 (6th Cir. 2017) (citing Pearson, 555
U.S. at 232).
The court first considers the question of qualified
immunity as to the four responding officers. Thames
alleges five constitutional violations: (1) wrongful
arrest in violation of the Fourth Amendment
(2) retaliatory arrest in violation of the First
Amendment, (3) violation of free exercise of religion in
violation of the First Amendment, (4) violation of the
Equal Protection Clause of the Fourteenth
Amendment, and (5) conspiracy to violate
constitutional rights. The court considers each alleged
violation below.

App. 48
2. Wrongful Arrest Claim under the Fourth
Amendment
The court first considers whether the officers had
probable cause to arrest Thames. If so, Defendant
Officers are entitled to summary judgment on Thames’
Fourth Amendment wrongful arrest claim. “Probable
cause to make an arrest exists if the facts and
circumstances within the arresting officer’s knowledge
were sufficient to warrant a prudent man in believing
that the [arrestee] had committed or was committing
an offense.” Hoover v. Walsh, 682 F.3d 481, 499 (6th
Cir. 2012) (internal quotation marks and citation
omitted). The Sixth Circuit has defined probable cause
as “reasonable grounds for belief, supported by less
than prima facie proof but more than mere suspicion.”
Id. (internal quotation marks and citation omitted).
“The inquiry is an objective one; the existence of
probable cause depends upon the reasonable conclusion
to be drawn from the facts known to the arresting
officer at the time of the arrest regardless of the
arresting officer’s subjective state of mind.” Id. at 500
n. 52 (internal quotations marks and citations omitted).
“In general, the existence of probable cause in a § 1983
action presents a jury question, unless there is only one
reasonable determination possible.” Fridley v.
Horrighs, 291 F.3d 867, 872 (6th Cir. 2002) (quoting
Pyles v. Raisor, 60 F.3d 1211, 1215 (6th Cir. 1995)).
Having set forth the standard of law for
determining probable cause, the court turns now to the
specific facts of this case to determine whether
probable cause existed for the arrest. For the reasons
set forth below, an issue of fact exists as to whether the

App. 49
officers had probable cause to arrest Thames which
precludes the entry of summary judgment for the
arresting officers. The security guard accused Thames
of making the following statement before her arrest: “I
prophesy bombs are going to fall and they’re going to
fall in the near future.” After her arrest, he reported
she said, “bombs, bombs, on America, and bombs will
blow up this building.” The fact that the security guard
arguably changed his story may call into question his
credibility. Also, the religious sister present at the
scene denied that Thames had made the statement.
Thus, a reasonably prudent officer on the scene might
doubt the security guard’s story. Whether or not the
security guard provided reasonably trustworthy
information is a question of fact for the jury.
Nevertheless, assuming that a reasonably prudent
officer would accept the security guard’s version of
events as true, the court considers whether these two
statements give rise to probable cause for her arrest.
Thames was arrested for violating Mich. Comp. Laws
§ 750.543m which provides in pertinent part:
(1)

A person is guilty of making a terrorist
threat or of making a false report of
terrorism if the person does either of the
following:

(a)

Threatens to commit an act of terrorism
and communicates the threat to any other
person.

(b)

Knowingly makes a false report of an act
of terrorism and communicates the false

App. 50
report to any other person, knowing the
report is false.
(2)

It is not a defense to a prosecution under
this section that the defendant did not
have the intent or capability of
committing the act of terrorism.

Mich. Comp. Laws § 750.543m(1)(a) criminalizes the
“making [of] a terrorist threat” by threatening to
“commit an act of terrorism” and the communication of
that “threat to any other person.” An “act of terrorism”
is defined as a “willful and deliberate act” that would
comprise a “violent felony,” known to be “dangerous to
human life,” and that “is intended to intimidate or
coerce a civilian population or influence or affect the
conduct of government ... through intimidation or
coercion.” Mich. Comp. Laws § 750.543b(a). The
Michigan Court of Appeals has held that:
Given the plain and ordinary meaning of these
terms, we are satisfied that the statutory
provisions, when read together, prohibit only
“true threats,” as they encompass the
communication of a serious expression of an
intent to commit an act of unlawful violence to a
particular individual or group of individuals....
Further, because the statutes require the
existence of an intent to “intimidate or coerce,”
they extend beyond the type of speech or
expressive conduct that is afforded protection by
the First Amendment.
People v. Osantowski, 274 Mich.App 593, 603; rev’d in
part on other grounds, 481 Mich. 103 (2008); see also

App. 51
People v. Bally, No. 320838, 2015 WL 4169244, at *2–3
(Mich. Ct. App. July 9, 2015).
The Supreme Court also has addressed what
distinguishes “true threats” from political hyperbole
which is constitutionally protected speech. In Watts v.
United States, a student at a public rally declared,
“[a]nd now I have already received my draft
classification as 1-A and I have got to report for my
physical this Monday coming. I am not going. If they
ever make me carry a rifle the first man I want to get
in my sights is L.B.J.” 394 U.S. 705, 706 (1969). The
Court held that the student was wrongfully convicted
for allegedly threatening the President, because only a
contextually credible threat to kill, injure, or kidnap
the President constitutes a “true threat” punishable
under the law. Id. at 708. Similarly, in Virginia v.
Black, 538 U.S. 343 (2003), the Court struck down a
statute banning cross-burning with the intent to
intimidate, where a provision of the law, as interpreted
by the State’s model jury instructions, provided that
burning of a cross in public view “shall be prima facie
evidence of an intent to intimidate.” Id. at 363-64. The
Court held that the prima facie evidence provision of
the cross-burning ban was unconstitutional under the
First Amendment, because it effectively prohibited all
cross-burning regardless of whether that conduct was
intended to intimidate or merely constituted protected
expression. Id. at 367. The Court explained that “[t]rue
threats” encompass those statements where the
speaker means to communicate a serious expression of
an intent to commit an act of unlawful violence to a
particular individual or group of individuals.” Id. at
359.

App. 52
Based on the above discussed Supreme Court
precedent, and because Michigan law is clear that
Mich. Comp. Laws § 750.543m only criminalizes “true
threats” which involve a “serious expression of an
intent to commit an act of unlawful violence,” the court
considers whether the statements allegedly
attributable to Thames meet this threshold. First, the
court considers her pre-arrest statement, “I prophesy
bombs are going to fall and they’re going to fall in the
near future.” In considering this statement, the court
gives the term “prophesy” its ordinary meaning.
According to Merriam-Webster, prophesy means, “to
utter by or as if by divine inspiration,” “to predict with
assurance or on the basis of mystic knowledge,” or to
“prefigure.” An example of the word in its ordinary
usage is Mark Twain’s text in A Connecticut Yankee,
“every time he prophesied fair weather it rained.” In
essence, to “prophesy” means to prognosticate, but it
does not suggest willful conduct or that the speaker
will be responsible for carrying out the prediction. In
the vague context allegedly used by Thames, at least a
jury question exists as to whether it amounts to a true
threat.
The evidence suggests that Defendant Officers did
not consider the statement to be a true threat as they
did not direct evacuation of the clinic, did not request
the assistance of a bomb squad, did not request the
assistance of a bomb sniffing dog, did not search the
clinic for a bomb, did not search the surrounding area
for a bomb, did not search the adjacent parking lot for
a bomb, did not search the dumpster for a bomb, and
did not impound Thames’ vehicle for fear that a bomb
might be planted in it.

App. 53
The security guard did not make his written
statement until after Thames was arrested. Even so,
the court considers whether that statement amounts to
a “true threat” which would give rise to probable cause
for arrest. That statement was, “bombs, bombs, on
America, and bombs will blow up this building.” This
statement presents a closer question than the first, but
like the “prophesy” statement, it is a vague prediction
about the future and does not suggest any present
intention on the part of Thames to carry out a crime of
violence against the clinic. Once again, the officers’
failure to make any attempt to locate a bomb or vacate
the clinic or surrounding vicinity suggests that an
objectively reasonable officer on the scene might not
view the statement as a true threat.
Having found that a jury question exists as to
whether the security guard’s allegations against
Thames gave probable cause for her arrest, the court
next considers whether the arresting officers are still
entitled to qualified immunity. “[U]nder § 1983, an
arresting agent is entitled to qualified immunity if he
or she could reasonably (even if erroneously) have
believed that the arrest was lawful, in light of clearly
established law and the information possessed at the
time by the arresting agent.” Everson v. Leis, 556 F.3d
484, 499 (6th Cir. 2009) (citations omitted). “[E]ven if
a factual dispute exists about the objective
reasonableness of the officer’s actions, a court should
grant the officer qualified immunity if, viewing the
facts favorably to the plaintiff, an officer reasonably
could have believed that the arrest was lawful.”
Kennedy v. City of Villa Hills, Ky., 635 F.3d 210, 214
(6th Cir. 2011).

App. 54
Viewing the facts in the light most favorable to
Thames, a jury question exists as to whether a
reasonable officer on the scene could have believed that
her arrest was lawful. Also, all four of the arresting
officers are potentially liable for the arrest. Sergeant
Brooks ordered the arrest. Officer Gatti investigated
the complaint at the scene. Officer Soulliere questioned
Thames, placed her in handcuffs, searched her vehicle,
transported her to the police station and initiated her
booking. Officer Tardif took the security guard’s
written statement. Under Sixth Circuit precedent,
those police officers present at the scene of a wrongful
arrest who have the opportunity and means to prevent
the harm from occurring, may be liable under § 1983
for failing to intervene to prevent the wrongful arrest.
See Smoak v. Hall, 460 F.3d 768, 784 (6th Cir. 2006);
Jacobs v. Village of Ottawa Hills, 5 F. App’x 390, 395
(6th Cir. 2001). Based on the foregoing discussion,
Defendant officers are not entitled to summary
judgment on the wrongful arrest claim. A jury question
remains as to whether there was probable cause for the
arrest.
3. Retaliatory Arrest Pursuant to the First
Amendment
Because Thames groups her First Amendment
violations of freedom of speech and the right to free
exercise of her religion together in her motion for
partial summary judgment, the court likewise does so.
As the Sixth Circuit has observed, “[f]ree exercise
claims are often considered in tandem with free speech
claims and may rely entirely on the same set of facts.”
Bible Believers v. Wayne Cty., 805 F.3d 228, 256 (6th

App. 55
Cir. 2015). First, the court considers whether Thames
has raised a genuine issue of material fact that Officers
Soulliere, Gatti, Tardif, and Brooks violated her right
to freedom of speech and free exercise of religion.
Thames alleges that she was engaging in protected
speech when she protested outside an abortion clinic
based on her sincerely held religious beliefs.
Unlike wrongful arrest claims brought under the
Fourth Amendment, motive is relevant to Thames’
claim that Defendant officers arrested her in
retaliation for her exercise of her First Amendment
rights. The Sixth Circuit has identified three elements
that a plaintiff must prove to establish a retaliatory
arrest claim: “(1) the plaintiff engaged in protected
conduct; (2) an adverse action was taken against the
plaintiff that would deter a person of ordinary firmness
from continuing to engage in that conduct; and
(3) there is a causal connection between elements one
and two—that is, the adverse action was motivated at
least in part by the plaintiff’s protected conduct.” City
of Villa Hills, 635 F.3d at 217.
An issue of law exists as to whether Thames must
also prove a fourth element — that there was an
absence of probable cause for her arrest — in order to
prevail on her retaliatory arrest claim under the First
Amendment. Although not identified by the parties, the
issue is now before the Supreme Court. Lozman v. City
of Riveria Beach, 681 F. App’x 746, cert. granted, 138 S.
Ct. 447 (2017). Circuit courts are split on this question
with the majority holding that the existence of probable
cause bars a First Amendment retaliation claim. See
Peggy v. Herrnberger, 845 F.3d 112, 119 (4th Cir. 2017)

App. 56
(existence of probable cause bars First Amendment
retaliation claim); Dahl v. Holley, 312 F.3d 1228, 1236
(11th Cir. 2002) (same); Keenan v. Tejeda, 290 F.3d
252, 262 (5th Cir. 2002) (same); but see Ford v. City of
Yakima, 706 F.3d 1188, 1196 (9th Cir. 2013) (an arrest
motivated by retaliatory animus is unlawful even if
supported by probable cause).
The Sixth Circuit has “defer[red resolution” of the
question of whether the absence of probable cause is an
element of an ordinary retaliatory arrest claim. City of
Villa Hills, 635 F.3d at 217, n.4.1 The Supreme Court
has ruled that probable cause is an element of a
retaliatory prosecution claim, Hartman v. Moore, 547
U.S. 250 (2006), but has not yet ruled on whether the
reasoning of Hartman extends to retaliatory arrest
claims. The Court addressed the issue of whether
Hartman extends to retaliatory arrest claims in Reichle
v. Howards, 566 U.S. 658 (2012) and noted critical
differences between the two constitutional torts, as the
former involves decision-making by prosecutors who
are entitled to absolute immunity, and the prosecutor’s
alleged animus is attenuated because in the ordinary
case the key defendant is not the prosecutor who made
the charging decision, while the latter typically
involves only the arresting officer who bears the
alleged animus. Id. at 667-69. While observing
differences in rationale which might justify treating

1

But see Barnes v. Wright, 449 F.3d 709, 717-20 (6th Cir. 2006)
(requiring absence of probable cause as an element of retaliatory
arrest claim where arresting agents initiated grand jury
proceedings and only arrested the plaintiff after the grand jury had
indicted him.)

App. 57
retaliatory arrest claims differently than retaliatory
prosecution claims, the Court did not reach the issue
because it found that the arresting officers were
entitled to qualified immunity because at the time the
defendant was arrested “it was not clearly established
that an arrest supported by probable cause could give
rise to a First Amendment violation.” Id. at 670.
Having already determined that there is a jury
question as to whether the Defendant officers had
probable cause to arrest Thames, the court must
consider the remaining elements of a retaliatory arrest
claim to determine if the Defendant officers are
entitled to summary judgment. The first two elements
are easily established. First, Thames engaged in
conduct protected by the First Amendment. Connick v.
Myers, 461 U.S. 138, 145 (1983) (“speech on public
issues occupies the ‘highest rung of the hierarchy of
First Amendment values,’ and is entitled to special
protection.”) (citations omitted); Capitol Square Rev. &
Adv. Bd. v. Pinette, 515 U.S. 753, 760 (1995) (“private
religious speech, far from being a First Amendment
orphan, is as fully protected under the Free Speech
Clause as secular private expression.”) (citations
omitted). Thames was protesting on a public sidewalk
which the Supreme Court has recognized as
“traditional public fora.” Frisby v. Schultz, 487 U.S.
474, 480-81 (1988). There is no exception for public
sidewalks adjacent to abortion clinics. McDullen v.
Coakley, 134 S. Ct. 2518, 2529 (2014). Second, her
arrest and 49-hour detention in a holding cell would
deter a person of ordinary firmness from continuing to
engage in that conduct.

App. 58
The only question then is whether there is a causal
connection between her pro-life activities and her
arrest—that is, whether her arrest was motivated at
least in part by her protected conduct. In support of her
claim that the Defendant officers had retaliatory
animus, Thames relies on the following evidence:
(1) Sergeant Brooks who ordered the arrest, testified
that “you can’t say anything about bombs near a
facility that performs abortions,” (Doc. 36. Ex. L at
29:20-25); (2) Defendant Brooks referred to people who
protest on behalf of the unborn as “fanatics,” (Doc. 36,
Ex. C at 10) (3) Defendant Gatti told the religious
sister who was protesting alongside Thames that “You
should not be in the position you are in, you’re a
disgrace, (Doc. 36, Ex. K at 19:23-25 to 20:1-5) and
(4) Defendant Gatti testified, “the comments that were
made by her, it’s a very politically religiously charged
issue.” (Doc. 36, Ex. K at 34:11-12, 35:18-22). Also, the
court considers the fact that the arresting officers did
not evacuate the clinic or make any serious efforts to
locate a bomb. Based on this evidence of animus
against pro-lifers, Thames has raised a genuine issue
of material fact in support of her First Amendment
retaliatory arrest claim. As previously discussed, the
right to be free from retaliation for expressive religious
activity is clearly established; thus, Officer Gatti and
Sergeant Brooks are not entitled to qualified immunity
on Thames’ First Amendment retaliatory arrest claim.
Because there is no evidence of retaliatory animus on
the part of Defendant Officers Tardif and Soulliere;
however, they are entitled to summary judgment on
the retaliatory arrest claim.

App. 59
Thames argues that the Sixth Circuit’s en banc
decision in Bible Believers supports her First
Amendment claim. In that case, Bible Believers had
been proselytizing their religious message peacefully at
an international Arab festival, but nevertheless, their
signs and banners had led to a violent reaction from a
group of adolescents at the festival who began hurling
water bottles and other objects at them. 805 F.3d at
239-40. As a result, the police officers threatened to
arrest the Bible Believers for disorderly conduct, if they
refused to leave the festival. 805 F.3d at 256. The Sixth
Circuit found the officer’s threats to arrest the
demonstrators violated the First Amendment. Id. at
256. Thames argues, in this case Defendant Officers
acted more egregiously, as they did not merely threaten
to arrest her, but actually did so. Bible Believers
supports Thames’ theory of liability because there is a
question of fact as to whether Defendant officers lacked
probable cause to arrest her.
Because there is a genuine issue of material fact as
to whether Officer Gatti and Sergeant Brooks violated
Thames’ First Amendment rights, the next question is
whether that right was clearly established at the time
of the alleged injury. The Sixth Circuit has stated that
“[t]he key determination is whether a defendant
moving for summary judgment on qualified immunity
grounds was on notice that his alleged actions were
unconstitutional.” Grawey v. Drury, 567 F.3d 302, 313
(6th Cir. 2009). The Sixth Circuit has emphasized the
Supreme Court’s admonition that the “‘contours of the
right must be sufficiently clear that a reasonable
official would understand that what he is doing violates
that right.’” Stamm v. Miller, 657 F. App’x 492, 496

App. 60
(6th Cir. 2016) (quoting Anderson v. Creighton, 483
U.S. 635, 640 (1987)). The specific action in question
need not have been previously held to be unlawful, but
the unlawfulness of the act must be apparent in light
of pre-existing law. Id. Under Bible Believers, and
Supreme Court precedent previously discussed, the law
is clearly established that the police cannot arrest a
person because of their objectionable protected free
speech activity; thus, the arresting officers are not
entitled to qualified immunity on Thames’ retaliatory
arrest claim brought under the First Amendment.
Lastly, the court considers Thames’ claim that
Defendant Officers violated her right to the free
exercise of her religion because her weekend detention
in the holding cell prevented her from attending Mass
and receiving the Eucharist. This is not a separate
constitutional tort, but relates to damages for her
wrongful arrest and retaliatory arrest claims.2
4. Equal Protection Claim
Fourteenth Amendment

under

the

Thames also seeks to recover for alleged violations
of the Equal Protection Clause of the Fourteenth
2

For a lawful incarceration, a free exercise of religion claim
requires than an inmate show that a condition of incarceration
places a “substantial burden on the observation of a central
religious belief or practice,” Hernandez v. C.I.R., 490 U.S. 680, 699
(1989); Living Water of Church of God v. Charter Twp. of Meridian,
258 F. App’x 729, 734 (6th Cir. 2007), Barhite v. Caruso, 377 F.
App’x 508, 510 (6th Cir. 2010), and missing one religious service
does not constitute a “substantial burden” on an inmate’s right to
the free exercise of her religion. Gill v. DeFrank, 8 F. App’x 35, 37
(2d Cir. 2001).

App. 61
Amendment. The Equal Protection Clause of the
Fourteenth Amendment commands that “no state shall
... deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV, § 1.
“To state an equal protection claim, a plaintiff must
adequately plead that the government treated the
plaintiff ‘disparately as compared to similarly situated
persons and that such disparate treatment either
burdens a fundamental right, targets a suspect class,
or has no rational basis.’” Ctr. for Bio-Ethical Reform,
Inc. v. Napolitano, 648 F.3d 365, 379 (6th Cir. 2011)
(internal citations omitted). Because the freedom of
speech is a fundamental right, Defendants’ conduct is
subject to strict scrutiny review. Bench Billboard Co. v.
City of Cincinnati, 675 F.3d 974, 986 (6th Cir. 2012).
The Sixth Circuit has held that “[f]undamentally,
the Clause protects against invidious discrimination
among similarly-situated individuals or implicating
fundamental rights.” Scarbrough v. Morgan Cty. Bd. of
Educ., 470 F.3d 250, 260 (6th Cir. 2006). In order to
prevail on her equal protection claim, Thames must
prove intentional discrimination on the basis of her
protected speech. McCleskey v. Kemp, 481 U.S. 279, 292
(1987). Unlike a Fourth Amendment wrongful arrest
claim which does not allow consideration of an officer’s
subjective intent but is governed solely by the objective
inquiry of whether or not probable cause existed, an
equal protection claim considers whether an officer had
discriminatory motivations. Farm Labor Org. Comm.
V. Ohio State Highway Patrol, 308 F.3d 523, 533 (6th
Cir. 2002).

App. 62
Here, Thames seeks to prove her equal protection
claim on the basis that Defendant Officers allegedly
singled her out for arrest because she was engaging in
pro-life speech activity. In support of this claim, she
relies primarily on the same evidence summarized
above in support of her retaliatory arrest claim, namely
(1) Officer Gatti’s testimony that the arrest was
justified because of the “very politically, religiously
charged” issue of abortion and that the “threats that
she made have been carried out in the past,” (Doc. 36,
Ex. K at 34:11-18), (2) Officer Gatti called the religious
sister a “disgrace,” (Doc. K at 19:23-25 to 20:1-5),
(3) Sergeant Brooks’ statement that those involved in
the abortion debate are “fanatics,” (Doc. 36, Ex. C at
10); (4) the Internal Investigation report statement
that, “[f]amily planning centers across the country and
across the world operate on a consistent heightened
state of security. This is common knowledge amongst
law enforcement agencies across the country and,
based on this violent history, has lent itself to be a
contributing factor when establishing enforcement
actions in and around family planning centers,” (Doc.
36, Ex. C at 15), and (5) Defendant Officers relied
solely on the security guard’s statements which were
not credible because his statements varied.
Based on this record, there is a genuine issue of
material fact as to whether Officers Gatti and Sergeant
Brooks arrested Thames for her pro-life activity, and
not because she made a “true threat.” Significantly,
Defendants failed to evacuate the abortion clinic or
make any meaningful attempt to locate a bomb. As
there is no evidence of discriminatory animus on the
part of Tardif and Soulliere; however, they are entitled

App. 63
to summary judgment on Thames’ equal protection
claim.
Having found a question of fact exists as to whether
Officer Gatti and Sergeant Brooks violated Thames’
equal protection rights, the next question is whether a
constitutional right was clearly established. If not, as
described above, Defendant Officers are entitled to
qualified immunity. Just as with Thames’ First
Amendment retaliatory arrest claim, the law was
clearly established that the police could not arrest a
peaceful speaker engaged in protected speech on a
public sidewalk. See Bible Believers, 805 F.3d at 25860. Accordingly, the arresting officers are not entitled
to qualified immunity on Thames’ equal protection
claim.
5. Conspiracy Count
Count five of the Complaint alleges that the
Westland Defendants conspired with the Northland
Defendants to violate Thames’ First, Fourth, and
Fourteenth Amendment rights pursuant to § 1983.
Defendants seek summary judgment on this claim.
Thames has not responded to the argument in her
response brief, nor addressed the issue in her own
motion for partial summary judgment. It appears that
Thames has abandoned the claim. Even if not, there
are no genuine issues of material fact as to Thames’
conspiracy claim, and Defendants are entitled to
summary judgment on this claim.
B. Municipal Liability
The court next considers whether the City of
Westland may be liable for alleged violations of

App. 64
Thames’ Fourth, First, and Fourteenth Amendment
rights. Municipalities are not entitled to qualified
immunity, and thus, the City of Westland may be liable
for alleged violations of Thames’ Fourth, First, and
Fourteenth Amendment rights if Thames can prove
liability under Monell. Thames argues that that the
arresting officers lacked probable cause to arrest her,
and that the City’s failure to train the officers on what
constitutes a “true threat” was the motivating force
behind the arrest, or that the City was liable because
the Chief of Police ratified the conduct by approving an
investigation of the incident which concluded that the
arrest was reasonable and justified. Thames’ municipal
liability claim fails under either theory.
“To succeed on a municipal liability claim, a
plaintiff must establish that his or her constitutional
rights were violated and that a policy or custom of the
municipality was the ‘moving force’ behind the
deprivation of the plaintiff’s constitutional rights.”
Brown v. Battle Creek Police Dep’t, 844 F.3d 556, 573
(6th Cir. 2016) (citing Monell v. Dep’t of Soc. Serv., 436
U.S. 658, 694 (1978)). Systematically failing to
adequately train police officers can constitute a custom
or policy that leads to municipal liability. Miller v.
Sanilac Cty., 606 F.3d 240, 255 (6th Cir. 2010).
However, “[t]he inadequacy of police training only
serves as a basis for § 1983 liability ‘where the failure
to train amounts to deliberate indifference to the rights
of persons with whom the police come into contact.’”
Slusher v. Carson, 540 F.3d 449, 457 (6th Cir. 2008)
(quoting City of Canton v. Harris, 489 U.S. 378, 388
(1989)). Most importantly, “‘[t]o establish deliberate

App. 65
indifference, the plaintiff ‘must show prior instances of
unconstitutional conduct demonstrating that the [City]
has ignored a history of abuse and was clearly on notice
that the training in this particular area was deficient
and likely to cause injury.” Brown, 844 F.3d at 573
(quoting Fisher v. Harden, 398 F.3d 837, 849 (6th Cir.
2005)). To succeed on a failure-to-train claim, a
plaintiff must prove the following: (1) the training was
inadequate for the tasks performed; (2) the inadequacy
was the result of the municipality’s deliberate
indifference; and (3) the inadequacy was closely related
to or actually caused the injury. Ellis ex rel.
Pendergrass v. Cleveland Mun. Sch. Dist., 455 F.3d
690, 700 (6th Cir. 2006) (citing Harris, 489 U.S. at
387)).
The standard for finding a municipality liable
essentially amounts to the judicial determination that
“the city itself [decided] to violate the Constitution.”
Connick v. Thompson, 563 U.S. 51, 61-62 (2011). “‘A
pattern of similar constitutional violations by
untrained employees is ordinarily necessary to
demonstrate deliberate indifference for purposes of
failure to train,’ although there are rare circumstances
in which ‘the unconstitutional consequences of failing
to train could be so patently obvious that a city could be
liable under § 1983 without proof of a pre-existing
pattern of violations.’” Id. (quoting Connick, 563 U.S. at
62, 64 (internal quotation marks omitted)). The
Supreme Court has held that for police officers, it does
not:
suffice to prove that an injury or accident could
have been avoided if an officer had had better or

App. 66
more training, sufficient to equip him to avoid
the particular injury-causing conduct. Such a
claim could be made about almost any encounter
resulting in injury, yet not condemn the
adequacy of the program to enable officers to
respond properly to the usual and recurring
situations with which they must deal.
Harris, 489 U.S. at 391.
Thames argues that the City of Westland may be
liable for her alleged constitutional deprivations
because the City failed to train officers to distinguish
“true threats” from political hyperbole, and ratified and
sanctioned the arresting officers’ alleged misconduct.
Under the above precedent, the City of Westland
cannot be liable under the failure to train theory of
liability because Thames has not shown any pattern of
alleged similar constitutional violations, or that this
case is the rare case where the failure to train is so
obvious that liability should be imposed even in the
absence of such a history.
As to her claim that the City ratified the allegedly
unlawful arrest and detention because the Chief of
Police accepted an investigation finding that the
arresting officers acted reasonably and in compliance
with department policy, a similar argument was
recently rejected by the Sixth Circuit in Burgess v.
Fischer, 735 F.3d 462 (6th Cir. 2013). In that case, the
plaintiff sued the Greene County Board of
Commissioners on the theory, among others, that the
municipality could be liable based on allegations of
excessive force on the part of its deputy sheriffs where
the Sheriff had approved an investigation which

App. 67
exonerated his subordinate officers’ use of force. Id. at
479. The Sixth Circuit rejected this theory of liability,
stressing that respondeat superior liability is not
available under Monell, and holding that the sheriff’s
“after-the-fact approval of the investigation, which did
not itself continue cause or continue a harm against
[plaintiff], was insufficient to establish the Monell
claim.” Id.
The Sixth Circuit explained that in order to
establish Monell liability under a single-act theory, the
plaintiff must prove that a “deliberate choice to follow
a course of action is made from among various
alternatives by the official . . . responsible for
establishing final policy with respect to the subject
matter in question.” Id. (quoting Pembaur v. City of
Cincinnati, 475 U.S. 469, 483 (6th Cir. 1986)). And
furthermore, the course of action must be the “moving
force” behind the plaintiff’s harm, as for example where
the final decision maker directed the destruction of
material evidence or ordered the takedown in question.
Id. Here, even if the arresting officers lacked probable
cause to arrest Thames, Thames has not introduced
any evidence to suggest that the Police Chief’s alleged
approval of the investigation of the officers was the
moving force behind her alleged constitutional
violations. Accordingly, the City of Westland is not
liable under Monell.
C. Supervisory Liability
Thames argues that Chief Jedrusik is liable as he
ratified and sanctioned the alleged police misconduct
and failed to adequately train and supervise these
officers with regard to distinguishing between a “true

App. 68
threat” and protected speech. The doctrine of
respondeat superior does not apply, however, in § 1983
lawsuits to impute liability onto supervisory personnel.
Turner v. City of Taylor, 412 F.3d 629, 643 (6th Cir.
2005). To plausibly find supervisory personnel liable,
the Sixth Circuit has explained the standard as follows:
[T]he § 1983 liability of supervisory personnel
must be based on more than the right to control
employees. Section 1983 liability will not be
imposed solely upon the basis of respondeat
superior. There must be a showing that the
supervisor encouraged the specific incident of
misconduct or in some other way directly
participated in it. At a minimum, a § 1983
plaintiff must show that a supervisory official at
least implicitly authorized, approved or
knowingly acquiesced in the unconstitutional
conduct of the offending subordinate.
Id. at 643 (internal citations omitted). In Turner,
plaintiff sought to hold the police Commander
responsible for excessive force and other constitutional
violations, arising from plaintiff’s alleged beatings and
mistreatment in prison, under the theory of
supervisory liability because the Commander
investigated plaintiff’s complaints and concluded there
was no evidence to support his claims. Id. at 635. The
Sixth Circuit ruled this was an inadequate basis for
imposing supervisory liability because allegations that
the Commander conducted an inadequate investigation
and reached the wrong conclusion does not amount to
a constitutional tort but merely sounds in negligence.
Id. at 649; see also Heyerman v. County of Calhoun, 680

App. 69
F.3d 642, 647 (6th Cir. 2012). The acts of one’s
subordinates or the mere failure to act standing alone
are not enough to hold a supervisor liable. Summers v.
Leis, 368 F.3d 881, 888 (6th Cir. 2004). Also, Thames’
efforts to recover against Chief Jedrusik on the basis
that he failed to properly train his subordinates is not
actionable under § 1983 under the circumstances
presented here. The Sixth Circuit has held that “a
supervisory official’s failure to supervise, control or
train the offending individual is not actionable unless
the supervisor ‘either encouraged the specific incident
of misconduct or in some other way directly
participated in it.’” McQueen v. Beecher Cmty. Sch., 433
F.3d 460, 470 (6th Cir. 2006) (internal citations
omitted).
D. John Doe Defendant
In her Complaint, Thames names as a John Doe
defendant, the security guard who alleges she made the
bomb threat. Although the officer’s name is now
known, and Thames refers to the officer by his name in
her motion for partial summary judgment, Thames
never sought to amend her Complaint to add him as a
party, and failed to serve him as required under
Federal Rule of Civil Procedure 4(m). The Sixth Circuit
has held that a civil action against a Doe defendant
never commences where they were not identified by
their real names or served with process. Cox v.
Treadway, 75 F.3d 230, 240 (6th Cir. 1996) (citing
Bufalino v. Michigan Bell Tel. Co., 404 F.2d 1023, 1028
(6th Cir. 1968)). Until a plaintiff amends her complaint
to identify a John Doe defendant by his true name, “the
John Doe allegations in the complaint are mere

App. 70
surplusage.” Smith v. City of Chattanooga, No. 1:08-cv63, 2009 WL 3762961, at *5 (E.D. Tenn. Nov. 4, 2009)
(collecting cases). Accordingly, the John Doe defendant
shall be DISMISSED.
V. Conclusion
For the reasons set forth above, Defendants’ motion
for summary judgment (Doc. 35) is GRANTED IN
PART and DENIED IN PART as set forth below:
IT IS ORDERED that Defendants’ motion for
summary judgment on Plaintiff’s wrongful arrest claim
(count three) is DENIED as to the arresting officers,
Defendants Soulliere, Gatti, Tardif, and Brooks.
IT IS FURTHER ORDERED that summary
judgment is DENIED as to Plaintiff’s retaliatory arrest
claim in violation of the First Amendment (counts one
and two) as to Defendants Officer Gatti and Sergeant
Brooks as genuine issues of material fact exist as to
whether Thames’ constitutional rights to engage in
protected speech and to the free exercise of her
religious beliefs were violated. However, summary
judgment is GRANTED as to Defendant Officers
Soulliere and Tardif on Plaintiff’s retaliatory arrest
claim (counts one and two) as there is no evidence of
animus on the basis of Plaintiff’s pro-life advocacy.
IT IS FURTHER ORDERED that summary
judgment is DENIED as to Plaintiff’s allegation that
Defendant Officer Gatti and Sergeant Brooks denied
her equal protection in violation of the Fourteenth
Amendment (count four) because genuine issues of
material fact exist as to whether these Defendants
arrested her based on her pro-life advocacy. However,

App. 71
because there is no evidence of discriminatory animus
on the part of Defendant Officers Soulliere or Tardif,
summary judgment is GRANTED as to these officers
on the equal protection claim (count four).
IT IS FURTHER ORDERED that Defendants’
motion for summary judgment as to Plaintiff’s
conspiracy claim (count five) is GRANTED.
IT IS FURTHER ORDERED that that summary
judgment is GRANTED as to all claims against Police
Chief Jeff Jedrusik as there is no basis for supervisory
liability.
IT IS FURTHER ORDERED that Defendants’
motion for summary judgment is GRANTED as to all
claims against the City of Westland as there is no basis
for Monell liability.
IT IS FURTHER ORDERED that Plaintiff’s motion
for partial summary judgment (Doc. 36) as to liability
only is DENIED.
IT IS FURTHER ORDERED that John Doe is
DISMISSED.
IT IS SO ORDERED.
Dated: April 20, 2018
s/George Caram Steeh
GEORGE CARAM STEEH
UNITED STATES DISTRICT JUDGE

App. 72
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 73

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 18-1576/1608/1695
[Filed January 10, 2020]
_____________________________
KIMBERLEY THAMES,
)
)
Plaintiff-Appellee/
)
Cross-Appellant,
)
)
v.
)
)
CITY OF WESTLAND, ET AL., )
)
Defendants-Appellants/
)
Cross-Appellees.
)
_____________________________ )
ORDER
BEFORE: BOGGS, BATCHELDER, and BUSH,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the cases. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.

App. 74
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

